              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Special Report
Management
Resolution  of Challenges
               Significant Finding
                            at the
InvestigationofRecommendations
Department      Energy




DOE/IG-0667
      -                                     November 2004
                                                     2002
